     Depafiment of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    TI-IE PERINATAL SERVICE CAPACITY
      OF THE FEDERALLY FUNDED
     COMMUNTY HEALTH CENTERS:

               RURAL CENTERS




                DECE~ER 1992   OEI-01-90-02331

I
                      OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sexvices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Boston regional
office under the direction of Mark R. Yessian, Ph. D., Regional Inspector General, and Martha
B. Kvaal, Deputy Regional Inspector General. Project staffi

REGION                                               HEADQUARTERS

Dana L. Miller, Frojec[ Leader                       Maruta Zitans
Timothy J. Corbett                                   Barbara Tedesco
Madelaine T. Tully
Deborah Skahan

 For additional copies of this repo~ please contact the Boston regional office at 617/565-1050.
              EXECUTIVE                             S U M M A R Y

PURPOSE

This report describes recent trends in the perinatal service capacity of rural community
health centers funded under Section 330 of the Public Health Sewice Act.

BACKGROUND

The high infant mortality rate in the United States continues to be a cause for
concern. The Public Health Service (PHS) recommends timely, high-quality perinatal
care as an effective way to lower the infant mortality rate and ensure healthier

newborns. A number of obstacles, however--including a decreasing supply of

obstetrical providers, rising medical malpractice insurance costs, and inadequate health

insurance
 coverage--prevent many women from obtaining perinatal services in a timely
fashion.


Attention has increasingly focused on the role of community health centers as key

providers
 of perinatal services to high-risk women in medically underserved areas
across the nation. Many of these women are difficult to reach and do not appreciate

the importance of prenatal care. In 1991, PHS funded 302 rural centers; these

represented 60 percent of all Section-330 centers. The Federal government provides

additional support for the centers through PHS Section-329 and -340 grants for

migrant workers and the homeless, Medicare and Medicaid reimbursements, Maternal

and Child Health grants, and the National Health Semite Corps.


In recent years the Federal government has made an increasing investment in the

centers. Little information is available, however, on the extent to which the centers

are able to address the perinatal care needs of the women they seine. To examine the
capacity of rural centers to provide perinatal care, we conducted a mail survey of all
rural centers receiving Section-330 funds as of June 1991 (to which 84 percent

responded); visited 1 center; conducted a telephone interview with representatives of

another center; held discussions with PHS administrators, State officials, and infant

health experts; and reviewed the relevant literature and data. our findings are based
primarily on information reported by the centers to us and to PHS.


FINDINGS


i%e capacity of rural commun ity health centen to   provide painatd care   ha increased in
several reqxcls tie 198&

  �	   The number of prenatal clients served by the centers rose 20 percent between
       1988 and 1990, from an average of 261 per center to 312. The number of
       births to center clients rose 21 percent during the same period, from an average



                                            i
      of 194 per center to 235. Survey respondents reported a total of 52,597
      prenatal clients and 36,316 births in 1990.

      The range of perinatal services increased at 61 percent of centers. The sewices
      added at the largest number of centers were HIV testing and counseling,
      smoking-cessation programs, and classes in parenting and childbirth.

      The range of ancillary services--such as home visiting and transportation-­
      increased at 28 percent of the centers.

      Forty-eight percent of centers offered on-site assistance with enrollment in
      Medicaid in 1990, an increase from 25 percent in 1988. Fifty-three percent of
      centers offered on-site assistance with enrollment in the Supplemental Food
      Program for Women, Infants, and Children in 1990, an increase from 49
      percent in 1988.

      Total revenues for the rural centers increased 20 percent between 1988 and
      1990; this includes a 19 percent increase in Section-330 grant funding, and a 42
      percent increase in Medicaid reimbursements. Thirty-eight percent of survey
      respondents reported that the amount of funding available for perinatal semices
      has increased since 1988.

Despite the increases in capacity, demand for perinatal senzices at mral centm has
continued to gmw and many cliimts still & not receive the optirnd coordinated packzge
of care in a timely fashion

       Twenty percent of the centers reported that they provided no perinatal services
       on site between 1988 and 1991. Our study did not examine the extent to which
       these centers made alternative perinatal care arrangements for their clients.

       Demand for semices increased at 75 percent of the centers; 42 percent of these
       centers reported their capacity to meet this growing demand either decreased
       or remained the same.

       Many centers reported that they do not coordinate, as part of their perinatal
       case-management efforts, all of the health and social sewices recommended by
       the Public Health Setice. This may, in part, reflect variations in the definition
       of “case management” among centers.

       On average, 59 percent of each center’s prenatal clients entered care during the
       first trimester in 1990. Nationally, 76 percent of all women, 62 percent of
       minority women, and 58 percent of women in Healthy Start project areas
       entered care during the first trimester.




                                            ii
 b     On average 18 percent of each center’s first-trimester enrollees received fewer
       than 9 prenatal visits. Our study did not examine the extent to which these
       patients may have received care elsewhere.

 �	    Thirty-eight percent of centers did not offer prenatal appointments at times
       convenient for working women.

Rural cen&m idimti@d several major comtrainls that saiously hit their capacity to provide
peiinatal care

       Medical staff shortages. Medical staff shortages, in part as a result of cuts in
       the National Health Service Corps in the 1980’s, present serious problems at 67
       percent of centers. Although the number of prenatal clients increased an
       average of 20 percent at the centers, the number of obstetricians, family
       physicians, and certified nurse midwives decreased an average of 1 percent.
       Twenty-eight percent of rural centers reported that at least 1 of these positions
       had been vacant for longer than 1 year.

       Medical malpractice insurance. The high cost of medical malpractice insurance
       has been a serious drain on resources at 55 percent of the centers. In late
       1992, Congress took initial steps to address this problem by passing legislation
       (P.L. 102-501) that extends medical malpractice liability protection under the
       Federal Tort Claims Act (mCA) to health care providers at the centers.

       Medicaid PO Iicies and procedures. Seventy percent of centers report serious
       problems stemming from Medicaid policies and procedures--such as a
       burdensome application process, low reimbursement rates, a limited range of
       covered services, or limited eligibility.

       Inadecmate health insurance. On average, 17 percent of each center’s perinatal
       clients were uninsured in 1990. At 9 percent of the centers more than 50
       percent of the clients were uninsured.

       Unsatisfactow community coordination. Seventy-three percent of the centers
       report serious problems stemming from unsatisfactory coordination of perinatal
       services in the community, a lack of other local providers willing to treat
       uninsured and publicly insured women, difficulty arranging obstetric backup for
       center staff and for consultation for high-risk clients, or difficulty obtaining
       hospital privileges for center staff.

       Limited space. Limited space seriously hinders the provision of services at 48
       percent of the centers. In addition, limited collocation of semices on site
       seriously restricts the comprehensiveness of care at 28 percent of the centers.




                                            ...
                                            111
    COMPANION REPORTS

    This is one of three reports on the capacity of the community health centers to
    provide perinatal care. Another report, The Perinatal Service Capacity of the Federally
    Funded Community Health Centen: Urban Centers (OEI-01-90-02330) examines recent
    trends in the perinatal care capacity of urban community health centers.

    The third report, 771e Perinatal Sewice Capacity of the Federally Funded Community
    Health Centem: An Overview (OEI-01-90-02332), summarizes and compares data on
    the perinatal care capacities of the urban and rural centers. It also presents
    information on two areas of special policy interest: Medicaid reimbursements to
    CHCS and Comprehensive Perinatal Care Program funding of the centers.

    That report identifies four major constraints that limit the perinatal capacity of the
    community health centers: inadequate staffing, the high cost of medical malpractice
    insurance, ineffective ties between the centers and the Medicaid program, and
    unsatisfactory relationships between the centers and other community providers.

    To enable the centers to meet increasing demand for semices, these limitations must
    be addressed in the near term by a cooperative effort involving government at the
    Federal, State, and local levels, as well as non-governmental organizations. The third
    report offers a recommendation that the Public Health Service (PHS) and the Health
    Care Financing Administration (HCFA) work with the Assistant Secretary for Planning
    and Evaluation (ASPE) to draft and implement a plan of action that addresses the
    identified limitations. The report also includes comments on the draft reports received
    from PHS, HCF~ and ASPE.




                                                iv

.
                       TABLE                                      OF                              CONTENTS

E X E CUTlvE SUMMARY


tNTRODUCIION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...* . . .                                                                                                                                               1

     Purpose . . . . .    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                               1

     Background . .
 .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                 �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   1

     Companion Reports            �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �       �       �       �       �       �       �       �       �       �       �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   ���
    2

     Methodology
              -. . . . . .
       �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �       �       �       �       �       �       �       �       �       �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   �   3


FINDINGS

     The capacity of rural community health centers to provide

     perinatal care has increased in several respects since 1988 . . . . . . . . . . . . . . . . .
 4

     Despite these increases in capacity, demand for perinatal setices at
     rural centers has continued to grow and many clients still do not
     receive the optimal coordi ]ated package of care in a timely fashion. . . . . . . . . . 7


     Rural centers identified se /era] maior constraints that seriouslv limit
     their capacity toprovideperinatal care . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


CONCLUSION . .              . . . . . . . . . . . . . . . . . . . .                                               . . . . . . . . . . . . . . . . . . ...*. . . .                                                                                         19



APPENDICES

k Federal Support for Perinatal Care at Community Health Centers . . . . . . . . A-1


B: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


c : Rural Sumey Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1


D: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

                         INTRODUCTION

PURPOSE

This report describes recent trends in the perinatal semice capacity of rural community
health centers funded under Section 330 of the Public Health Semite Act.

BACKGROUND

Birth Outcomes in the United States: The high rate of infant mortality in the United
States continues to be a cause for concern. Each year, approximately 40,()()0 infants
die before their first birthday--almost 1 percent of all infants born alive in the nation.
In the 1950’s, the U.S. ranked 5th among the world’s nations in lowest infant mortali~,
today it ranks 23rd. The rate for black infants continues to be double that for white
infants.l

Perinatal Care in Rural America: A pregnant woman with no prenatal care is three
times more likely to have d baby born at low birthweight--a key indicator of the risk of
infant death--than a woman with adequate care. The Public Health Service (PHS)
recommends timely, high-quality care before, during, and after birth as an effective
way to lower the infant mortality rate and ensure healthier infants. Such perinatal
care should include early and continuing risk assessment; health promotion; and
medical, nutritional, and psychosocial interventions and follow-up.2 A full course of
care is especially vital for women at risk because of medical or social factors.

In 1989, however, almost 170,000 American women received no prenatal care until the
third trimester, and another 86,000 received no care at all during pregnancy. Thirteen
percent of whites received inadequate care; the proportion of blacks and Hispanics
was twice that.3

Rural women face especially significant barriers to care, including poverty, isolation,
inadequate medical insurance, and a lack of transportation. A shortage of health
professionals in rural areas--particularly a lack of obstetrical providers--exacerbates
these problems. Although 28 percent of Americans live outside of urban areas, they
                                                         4
are sewed by only 13 percent of the nation’s doctors; more than 1,400 rural counties
have no obstetricians at all.s A lack of resources and inadequate insurance further
limit access to care. About one-third of rural childbearing women live below the
poverty level--5 percent more than in urban areas--and about 4.7 million rural families
have no health insurance of any kind.G Although recent Medicaid expansions have
increased the number of pregnant women who are eligible for coverage, States have
found that many obstetrical providers are unwilling to accept Medicaid-enrolled
clients.’




                                             1
Rural Community Health Centers: Community health centers (CHCS) are key
providers of perinatal services to high-risk women in the nation’s rural areas. The
CHC program was established in 1965 to meet the comprehensive health needs of
the nation’s medically undersexed. Federal administration of the program was consolidated

in 1975 under Section 330 of the Public Health Service Act. In 1991, PHS funded 514

centers, 60 percent of which were located in rural areas. There are roughly 1,380

medically underserved rural areas, however, and many of these are not seined by centers;

about 2,100 counties in the United States still have provider shortages.8 More than one-
third of the States have 5 or fewer community health centers.9 In 1992, PHS funded a
total of 549 centers.

The Federal government supports the semices provided by community health centers
through PHS Section-330 grants as well as through Medicare and Medicaid
reimbursements, Maternal and Child Health grants, PHS Section-329 and -340 grants for
migrant workers and the homeless, the National Health Sewice Corps, the Supplemental
Food Program for Women, Infants, and Children, and the Rural Health Clinic Program.

In recent years, funding for the centers has increased,10 and several initiatives have been
implemented to expand center semices and improve access to care. These include:
supplemental funding through the Comprehensive Perinatal Care Program (CPCP),
expanded Medicaid coverage for pregnancy care, increased Medicaid reimbursement for
center semices through the Federally Qualified Health Center provisions of the Omnibus
Budget Reconciliation Acts of 1989 and 1990, and Healthy Start grants to support
community coordination of perinatal care. (For more information on Federal programs
see appendix A.)

Little information is available, however, on the extent to which centers are able to
address the perinatal care needs of the women they serve. A clear understanding of the
centers’ current capacity to provide perinatal care is vital to further planning and
program design. In this report, we examine recent trends in the capacity of rural centers
to provide these senices.

COMPANION REPORTS

This is one of three reports on the capacity of the community health centers to provide
perinatal care. Another report, The Perinatal Service Capacity of the Federally Funded
Community Health Cen[ers: Urban Cenlen (OEI-01-90-02330) examines recent trends in
the perinatal care capacity of urban community health centers.

The third report, T4e Perina[al Service Capacity of the Federally Funded Community
Health Centezs: An Overview (OEI-01-90-02332), summarizes and compares data on the
perinatal care capacities of the urban and rural centers. It also presents information on
two areas of special policy interest: Medicaid reimbursements to CHCS and CPCP
funding of the centers.




                                            2

That report identifies four major constraints that limit the perinatal care capacity of
the community health centers. To enable the centers to meet increasing demand for
services, these limitations must be addressed in the near term by a cooperative effort
involving government at the Federal, State, and local levels, as well as non-
governmental organizations. That report offers a recommendation that the Public
Health Service (PHS) and the Health Care Financing Administration (HCFA) work
with the Assistant Secretary for Planning and Evaluation (ASPE) to draft and
implement a plan of action that addresses the identified limitations. The report also
includes comments received from PHS, HCF& and ASPE on the draft reports.

METI-IoDoImGY

This report is based on information gathered from a mail survey of rural community
health centers; a site visit to one rural center; a telephone intetiew with another
center; discussions with PHS administrators, State officials, and infant health experts;
and a review of the relevant literature and PHS data.ll

We sent the mail su~ey to all community health centers receiving Section-330 funds as
of June 1991. Of the 302 rural centers, 253 (84 percent) responded. Our findings are
based primarily on the responses of those 202 rural centers (67 percent of all rural
centers) that offered perinatal services on site during the period 1988-91. (See
appendix B for detailed methodology.)

Our review was conducted in accordance with the Inlerirn Slandards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             3

                                 FINDINGS

THE CAPACITY OF RURAL COMNKNT’Y HEALTH CENTERS TO PROVIDE
PERINATAL CARE HAS INCREASED IN SEVERAL RESPECTS SINCE 1988.


�   % number of prenatal ciienLY served by the centen rose 20 pement between 1988 and
     19W, fmm an average of 261 per center to 312 The number of b% to cen&r c&n@
     we 21 percenl during the same pew finm an average of 194 per cenler to 235.
     Survey reqpondenfs repti a total of 5~597 prenatal clien/s and 3~316 births in
      Iwo.

                                                                         Figure 1
Sixty-three percent of the centers                           Average Number of Prenatal Clienis
reported that the size of their                                    1988.1989, and 1990
prenatal client caseloads grew           w          I
between 1988 and 1990 (see figure        )!
1). Caseloads grew more at those              400{ I
centers that sewed smaller               J
                                         u          II

caseloads in 1988, those that did not                                         294




                                                                       I_
receive Comprehensive Perinatal                               261

Care Program (CPCP) funding, and
those that seined prenatal client
populations that were more than
                                  12                     1
half Medicaid-enrolled in 1990.                                               lW


                                                         solmxoms   lmmyafmualcmmmlayHcabheh&     1991.
                                                                               N-151




Caseloads grew 173 percent between 1988 and 1990 at centers that sewed fewer than
75 clients in 1988, 23 percent at centers that served between 75 and 249 clients, and
11 percent at centers that sewed 250 or more prenatal clients.13

Caseloads grew 25 percent at centers that did not receive CPCP grants, and 18
percent at centers that did receive these grants. The average caseload size, however,
was larger at CPCP-funded centers. 14 Caseloads grew 28 percent at centers in which
more than half of the perinatal population was Medicaid-enrolled in 1990, and 12
percent at centers in which less than half was Medicaid-enrolled. The average
caseload size, however, was smaller at centers with perinatal populations that were
                                            1s
more than half Medicaid-enrolled in 1990.




                                               4

�      The range of painatal sewices increased at 61 pement of centeKs. The services
       added at the liqyxt number of centm were HIV testing and counsebg
       Smotig<matin program, and chsses in parenting and childb~

Medical and Health Promotion SeM(XS: Between 1988 and 1990, there was an
increase in the percentage of centers protiding each of a representative range of
perinatal medical and health promotion services, either on site or off site through paid
referrals or contracts. 16 HIV counseling and testing and parenting classes were added
at the largest percentage of centers (see figure 2).



                                              F@re 2
                   Percentage of Centers that Provided each Peri.nata.l Service
                          Either On Site or Off Site, 1988 and 1990




               8
              “E
              $
              3
              +!
               &



                                                                                       by 1990



                          Percentage of Centers Providing Each Service
                     Source: OIG Survey of Rural Cmununity Health Center% June 1991.
                                                 N-202




    Sewices on site: At the same time, 42 percent of the centers added at least 1 medical
    or health promotion service on site. The semices added on site at the largest number
    of centers were family planning, health education, and nutrition SeIViCeS” In 1990~
    more than 80 percent of centers offered each of these services on site (see appendk C
    for suwey responses).




                                                         5

�    The mnge of a&~ semices--such as home visiting and tzaqortation--increased
     at 28 pemenf of the cenhxs.

Twenty-eight percent of the centers added at least one service that facilitates access to
                                        17
perinatal care between 1988 and 1990. Home-visiting semices were added at the
largest percentage of centers, and child care during appointments was added at the
smallest percentage of centers (see figure 3).


                                                  Figure 3
                                Percentage of Center8 that Provided
                               Each AXiC~ SeMce, 1988 and 1990
                               Trans&tiaI far naMhi@b Spakem


                                HaIW Wits
                         4,
                       IL


                           I




                           b
                                uliklcarc dining Ap@mnmm
                                                                        � :wzm
                                                                        c1
                                                                                  ,
                          0%k         20%        40%           60s       m%      la)%



                                sameoIQ   sweyaf Ru4’dcnmwniy“       HeaM-JulE 1991.
                                                       N-2U2




�    Fo@+ght pement of cetiem offered on-de assistance with eruulknent in Medicakl
     in 1990, an increase fmm 25 pexeti in 198& Fifi-three penxru of centem offkred
     on-de dtance tih enrollment in the Suppbnentd Food -am for Womq
     Infa~ and Chikken (JV7C) in 1990, an ihcrease @m 49 percent in 198&

A larger percentage of CPCP-funded centers than other centers provided on-site
assistance with WIC enrollment. In 1990, 62 percent of the CPCP-funded centers
provided assistance with WIC, while only 46 percent of other centers did S0.18

There was no significant difference between the percentage of CPCP-funded centers
and other centers that offered on-site assistance with Medicaid enrollment in 1990.
Between 1988 and 1990, however, on-site assistance with Medicaid enrollment was
added at a larger percentage of CPCP-funded centers.19




                                                          6

�   Total revenues for the nual centm increased 20 percent between 1988 and 199Q;
    ti includes a 19 pexent increase in Section-330 grant funding and a 42 pment
    increase in Medicaid reimbmements. l%irty-eight penxnt of SUWey respondents
    repti that the amounf of @ding avaikble for painatal services has increased
    since 198&

The PHS Section-330 grant represented 44 percent of total revenues for these centers
in both 1988 and 1990. Medicaid reimbursements amounted to 11 percent of total
revenues in 1988 and 13 percent in 1990.m

Increased funding for perinatal services was correlated with increased capacity.
Seventy-two percent of centers that reported increased funding for perinatal services
also reported increased capacity, while only 40 percent of those that reported a
decrease or no change in perinatal funding also reported increased capacity.

Several centers noted that additional revenues, especially through the CPCP, enabled
them to enhance their perinatal services. One administrator illustrated the potential
impact of the supplemental revenues when he explained: “Our CPCP funding began
in 1990. We got an additional family practitioner that year. Now we have two
providers instead of just one.” Another center further demonstrated the possible
benefits of the funding, reporting greatly expanded semices through the “addition of a
case manager, of an obstetric specialist, and of a double-wide trailer to house an
obstetric clinic--a much improved space.”


DESPITE T’HESE INCREASES IN CAPACITY, DEMAND FOR PERINATAL
SERVICES AT RURAL CENTERS HAS CONITN_UED TO GROW AND MANY
CLIENTS STILL DO NOT RECEIVE THE OPTIMAL COORDINATED
PACKAGE OF CARE IN A TTMELY FASHION.


b    7kenty percent of lhe centm repotied that they provided no petitd seties on site
     between 1988 and 1991. Our studjv did not examine the exteti to whidz these
     centers made alternative perinatal care awangements for their cZients.

Fifty-one centers reported that they did not offer perinatal care between 1988 and
      2
1991. * Forty-seven percent of these indicated that they would like to provide perinatal
services but that a lack of obstetric providers or hospital privileges prevented them
from doing so. Illustrating these circumstances, one administrator wrote that, “due to
lack of support services for our physicians and the lack of available delivery facilities,
all perinatal clients are referred to four surrounding county health departments.”

Many centers indicated that they provide referral and support selvices, but the
distances some patients must travel for such care are considerable. Several centers
said that they refer women more than 50 miles away. For example, one administrator



                                            7

remarked that “closure of a hospital unit 50 miles away forces us to send all obstetric
patients 100 miles away.” Another remarked that “the local hospital closed in
1987. We now refer women to the local health department and hospital 26 miles
away.”

According to a recent survey, women who traveled outside of their communities for
perinatal semices were more likely to experience complications during delivery, stay
longer in the hospital, and need more expensive neonatal semices.22 In addition, a
prior OIG survey of rural hospital closings found that people who must travel more
than 10 miles for health care experience limited access to medical and emergency
semices.”


b    Demand for services increased at 75 pewen& of the centers; 42 pecenf of these
     centm repoti their capady to meet thik growing demand either decreased or
     remaind the same

An additional 16 percent of the centers reported that demand for services had not
changed since 1988. Of these, 19 percent reported that capacity to meet demand had
decreased.

Illustrating these statistics, a center noted that between August 1989 and July 1990,
“the floodgates were opened and any prenatal patient who wanted care from our CHC
was seen and delivered. This caused problems, however, because the doctor was
absent from the clinic too often, and eventually the program had to be curtailed.”
Another center reported that “the demand for perinatal care has increased but the
number of our health providers has remained the same, not allowing us to see more
perinatal patients;” and another stated that “between 1988 and 1990 the number of
prenatal women seeking care at our clinic continually increased. By mid-1990 the
demand for care exceeded our capacity. Presently the demand for perinatal care is
nearly double our capacity.”

Several factors account for increasing demand at centers. Fifty-three percent of the
centers reported that Medicaid eligibility expansions had seriously increased demand
for perinatal semices, and 46 percent reported that Medicaid presumptive and
continuous eligibility provisions had done Sow

Decreases in the availability of private health care and in private physician
participation in Medicaid have also increased demand at centers. An administrator
explained that “fewer providers accept Medicaid, while at the same time eligibility has
increased resulting in higher demand.” Another remarked that demand at his center
increased when the private obstetric provider left the area. These comments are
consistent with reports from other centers.




                                            8

E   Sixty-eight pement of the centers repti that thq do not cooniina~ as pa?t of their
    @natal case-management flortiq all of the hedh and d sewices
    recommended by the RAlic Health Servke. This may, in pu~ rejkct variatiims h
    the&jinulo
             “ “ n of “case rnunagement” among centem

According to the PHS, perinatal care should include risk assessment; health
promotion; and medical, nutritional, and psychosocial services and follow-up.fi To
maximize the accessibility, quality, and comprehensiveness of services, the PHS
requires centers to coordinate care through case management.”

Most centers provide some of the services recommended by the PHS, but 68 percent
of them do not coordinate all of these services as part of a comprehensive
case-management system. Fifty-three percent reported that they did not coordinate
discharge planning and 42 percent reported that they did not coordinate delivery
services as part of their case-management efforts (see figure 4).

                                          Figure 4
           Percentage of Centers that DO NOT Case Manage Each Perinatal Semite

               RiAA.wxnmt~ 18%
              Wti     ~             -         22%
              AmbtmawithwIc-~%
               HaltbEAK-ial-~%
             ~-’i=-~- =%
             ~ s-i- M-SiCO~ 27%
             - =V’= ~~~ ~ 45%
             - =-off-si~~ 38%
               ~w--~ 42%
              ~ p-- 53%
                       o%       10%                30%   40%     so%     60%
                       Percentage of Centers that DO NOT Case Manage Each Service
                            SOlucc: 01(3 Slnvcy of Rm81 community Health Gmal& h 1991.
                                                      N-202




There is no commonly accepted definition of what case management entails; centers
may coordinate the delivery of services and not refer to such coordination as
case management.

Nonetheless, 29 percent of the centers reported that limited case management
seriously constrains their capacity to provide comprehensive care; and 8 percent
reported that it has become a greater problem since 1988. Thirteen percent reported
that they provided no case management at all.




                                                    9

Centers reported several problems that indicate inadequate coordination of care. The
timely transfer of medical records to delivery facilities is a problem at 17 percent of
the centers, and the transfer of records to other facilities at 16 percent. Further,
centers reported that they do not reschedule appointments for an average of 40
percent of perinatal clients who miss them. Follow-up care is also a problem: on
average, 26 percent of each center’s prenatal clients and 28 percent of their infants did
                                                                                        27
not receive follow-up care at the centers within the first 8 weeks after birth in 1990.

The CPCP was intended, in part, to support centers’ case-management efforts. CPCP-
funded centers were significantly more likely than other centers to provide case
management for all the services recommended by the PHS. Fifty percent of CPCP-
funded centers included all of these services in their case-management efforts, while
only 14 percent of other centers did so. Eighteen percent of CPCP-funded centers
cited limited case management as a serious limitation to care, while 47 percent of
other centers reported the same concern.


�    On avemge, 59 percent of each centerh prenatal clients entered care in the @t
     titer of pr~ncy in 1990. Natiimally, 76 pe~ent of all wow 62 percent of
     minority womq and 58 percent of women in Healthy Stati project areas entered
     care cluing the jiit ttiter. B

The PHS had set a goal to achieve 90 percent first-trimester enrollment for all women
by the year 1990. This goal was not met, and has now been set for the year 2000. on
average, 31 percent of each center’s 1990 prenatal clients did not enter care until the
second trimester and 10 percent did not enter until the third. This compares with
1989 national rates of 18 percent of women entering care in the second trimester and
4 percent in the third.29

Although the CPCP was intended, in part, to encourage earlier entry into care,
responses to our survey indicate that there was no significant difference between
CPCP-funded centers and other centers with regard to the percentage of clients who
entered care in the first trimester in 1990. Our study does not allow a comparison of
CPCP grant recipients and other centers with regard to trends over time in first-
trimester entry into care.

According to several center administrators, transportation problems hinder early entry
into care. Thirty percent of centers noted that patients had difficulty traveling to the
center and to delivery sites. One administrator explained the difficulties caused by
rural isolation: “Even though we improved access through multiple sites, there are
many clients who have no transportation. . . . The fact that our delivery site and after-
hours clinic is located 30 to 60 miles away from our clients leads to a high degree of
stress and anxiety for them.”




                                            10

Twenty percent of centers reported that poverty and cultural barriers also hinder early
entry into care. Several noted that clients often do not recognize the importance of
prenatal care.


�    On aven.zgq 18 percent of each center3 fimt-titer enmlks received freer than 9
     prenatal vkits. Our study did not wrnine the extent ti which these patients may
     have received care ekwhere.

The American College of Obstetricians and Gynecologists recommends that women
entering prenatal care in the first trimester receive a minimum of 9 visits.n On
average, however, 18 percent of each center’s first-trimester enrollees did not receive
at least 9 prenatal visits in 1990.

Although the CPCP was intended, in part, to encourage more prenatal visits, sumey
responses indicate that there was no significant difference between CPCP-funded
centers and other centers with regard to the percentage of first-trimester enrollees
who received at least 9 visits in either 1988 or 1990.

Centers reported that transportation problems and poor education prevent women
from making and keeping a sufficient number of prenatal appointments. Some centers
have begun offering gifts to encourage women to enter care early and attend all
scheduled appointments; one center offered $25 to clients who kept all of their
perinatal appointments.


�   ~-eight piment o f centen do not offer prenatal appointmenfi at times
      convenient for wotig women.

In 1990, 38 percent of the centers provided no scheduled prenatal appointments in the
early morning, in the evening, or on Saturdays. Such restricted appointment hours
may force working women to choose between work and prenatal care.

Twenty-one percent of the rural centers have waiting times of two to four weeks for
initial prenatal visits and three percent have waiting times for initial visits of more than
one month. Long waits for prenatal appointments can have adverse results. If a
woman tests positive for pregnancy in her second month and then must wait four
weeks for her first prenatal appointment, she may enter care in her second trimester.
The implications of such waits are more problematic when pregnancy is detected later
and when the mother is at high risk, as many center clients are.

In addition, 13 percent of the centers reported that office waiting times have grown
longer since 1988. Long waiting times at the centers may discourage women from
making and keeping appointments,




                                             11

RURAL CENTERS IDENTIFIED SEVERAL MAJOR CONS~ THAT
SERIOUSLY LIMIT THEIR CAPACITY TO PROVIDE PERINATAL CARE.



�     Medical staff shonagq in part as a result of cuts in the National Health Service
      COP in the 1980’$ praent serious pmbleww at 67 ~xent of centem

Although the average number of prenatal clients increased about 20 percent at
centers, the average number of full-time-equivalent obstetricians, family physicians,
and certified nurse midwives decreased 1 percent from 1988 to 1990. (See appendix C
for survey responses.)

Additionally, 52 percent of the centers reported that at least 1 obstetrician, family-
physician, or certified nurse-midwife position was currently vacant (see table 1), and 28
percent reported that at least 1 of these positions had been vacant for longer than 1
year. Thirty-nine percent of the centers also reported that medical staff shortages
have become more severe since 1988, and 32 percent cited high medical staff turnover
as a serious problem.

                                        Table 1
    Percentage of Centers Reporting at Least One Clinical Provider Position Vacant?l
              Staff Position                   Currently         Vacant more          Vacant more
~                                                ‘amt ~ “m ‘k ‘onth ‘m ‘ne ‘=
    Obstetrician-Gynecologist                      2170               17%                10%
    Family Physician                               39%       I        3370               19%
    Nurse Midwife                                  13%                10%                 5%

                    Source: OIG Sutvey of Rural Community Health Centers, June 1991
                                                 N =202

Many centers reported that current staffing levels are insufficient to meet client needs.
One center noted that “the demand for semices continues to grow, but with no
additional providers, the demand is not met with a corresponding supply.” Another
complained that, despite “incredible population growth in the area, the provider
population isn’t increasing.”

of those centers that have reduced perinatal services in recent years, a large number
cited staffing problems as the primary cause: one noted that its “decrease in perinatal
services is proportional to a decrease in providers;” and another that its recent loss of
an obstetrician “has definitely hampered our ability to provide perinatal services.”
Recruitment and Retention Problems: Centers have historically faced serious
problems recruiting and retaining medical staff. The work is demanding and wages
and benefits are generally not comparable to those in the private sector. A shortage
of staff means more frequent on-call rotations, which in turn makes a center less
attractive to prospective employees. Insufficient support from the wider medical
establishment also contributes to reluctance on the part of providers to accept
positions at centers where they might not be assured staff privileges at local hospitals
or adequate backup from local providers. Some centers cited unattractive clinic




establishment also contributes to reluctance on the part of providers to accept
positions at centers where they might not be assured staff privileges at local hospitals
or adequate backup from local providers. Some centers cited unattractive clinic
facilities and poor client populations as barriers to recruitment efforts.

Recruitment efforts at many rural centers are further hindered by their geographic
isolation. Some prow”ders are apprehensive about working in small communities
where they will have little support from and contact with a broader medical
establishment. One center administrator reported great difficulty convincing
prospective employees that the community was “not the worst place in the world to
work, play, and live.” Such recruiting challenges were reported by other administrators
with whom we spoke.

A limited supply of providers further exacerbates recruitment efforts. As one hospital
administrator explained: “Without a supply of trained practitioners from which to
draw, the incentives created by many communities in the form of buildings, loan
forgiveness, etc., are largely futile. Similarly, program grant monies are only of use
when the practitioners are available.” Other centers echoed this view. One
administrator reported that his center had been working with a local hospital to jointly
recruit an obstetrician, but they had not yet met with success; another noted that, in
attempting to replace a physician who had just left the center, they had “used search
firms, State offices, and other agencies and individuals to find a replacement, all to no
avail.”

National Health SeMce Corps: Centers have historically relied upon the NHSC for a
large percentage of their providers, but this program experienced major funding cuts
during the 1980’s. (See appendix A for more information.) Center administrators
reported that they have often been unable to retain corps providers beyond their
obligated terms of semice and that they have found it difficult to replace these
providers. Exempli&ing problems that the centers encounter retaining NHSC
physicians, one center reported that it had lost an NHSC obstetrician to “buy-out by a
private hospital.”

Staffing Models: Most rural centers rely more heavily on family physicians than
obstetricians.
 -. .          Centers report significant problems, however, recruiting family
                  . **. *      “n:__ A_ ---..JAfi fiL.+ntAp 09rp fine r~nter administrator
For those centers that are interested in employing obstetricians, recruitment is often

an insurmountable challenge because of the high salaries and insurance premiums they

require.
 one administrator explained the underlying economic dynamic and its
impact: “When a scarcity of anything exists, it becomes a seller’s market. Obstetricians

can name their price and structure their work in accord with their preferences. The

strain and stress that this places on the CHC can easily be underestimated.”



E    % cwt of medical malpractice insumnce has been a setius dmin on resoumx at
     55 pement of the eaten.

Twenty-four percent of the centers indicated that the cost of medical malpractice
insurance has become a more serious limitation since 1988. A substantial increase in
commercial medical liability insurance rates and cutbacks in the National Health
Service Corps have resulted in dramatically increased expenditures on medical liability
coverage for all of the centers. In 1990, insurance premiums amounted to an
estimated 10 percent of all centers’ total Federal grant funding--or 4.4 percent of
center revenues.s2

These costs have made it difficult for centers to expand staff, since scarce funds must
be spent on insurance instead of salaries. Centers that contract for care have had
difficulty paying the rising wages necessary to meet the insurance costs of private
physicians. One center reported that it has been unable to obtain coverage at any
cost.

The variety of medical malpractice problems is exemplified by comments from three
centers. One center reported that its perinatal services had been discontinued due to
“a lack of funding for excessively high malpractice premiums.” Another center noted
that its malpractice insurance carrier had threatened to cancel coverage for the entire
clinic if the center did not suspend its contractual agreement with a private
obstetrician. Still another reported that, although it had been able to locate providers
willing to work at the center, it was unable to arrange liability coverage.

In late 1992, Congress took initial steps to address this problem by passing legislation
that extends medicai malpractice liability protection under the Federal Tort Claims
                                                       33
Act (FTCA) to health care providers at the centers.


�    Seventy pexent of centen repti serious problems stemmingfiom M2dicaid poti
     and procedures--such as a bur&nsome application process, low reimbwement mtq
     a ilmikxi range of covered services, or limited eli~ility.

On average, 67 percent of each center’s perinatal clients were enrolled in Medicaid in
1990.~ Despite recent changes in the Medicaid system intended to increase access to
care, however, many Medicaid-related factors continue to hinder the centers’ ability to
provide comprehensive, timely care (see table 2).


                                            14
                                         Table 2
                    Percentage of Centers Citing Each of the Following
                         Medicaid Factors as a Serious Limitation
                    Burdensome application procedures                         52%
               1!   Inadequate reimbursement rates                        1 52% I
               /1
               1! Restrictive eligibility criteria                        1   44%     I
                L---
                 Limited range of covered services
                 Slow reimbursement process
                                                                              4170
                                                                              39940

                    Source: OIG Survey of Rural Community Health Centers, June 1991
                                                 N=202

Application Process: According to a prior OIG report, only 26 States had

                                                                35 

implemented presumptive eligibility as of June 1991. our research indicates,
however, that even some States that had adopted this option had not begun to use it

aggressively. Further, according to the centers, a number of State Medicaid agencies

had not begun outstationing eligibility workers on site.


Reimbursement: The Federally Qualified Health Center (FQHC) provisions of the
1989 and 1990 omnibus Budget Reconciliation Acts called on the States to begin

paying cost-based reimbursement to CHCS as of April 1, 1990. According to PHS

records, however, only 27 States and the District of Columbia had begun paying higher

FQHC-Medicaid rates as of May 1991. Most of these payments were at interim
rates.% Since our survey, additional States may have begun to implement these
provisions.

An administrator at the site we visited noted that the State had begun reimbursing
that center at FQHC rates, but that even these new rates did not fully cover the cost
of care. Concerns about continuing inadequate reimbursement rates were voiced by
several survey respondents. Centers also reported long delays between the provision
                                                        37
of services and the receipt of payment from Medicaid.

Some centers may already have been receiving higher Medicaid reimbursement rates
as a result of the Rural Health Clinic Act of 1977. To quali@ for higher rates under
this act, a center must be located in a rural area that has a shortage of either health
professionals or services. Additionally, the center must be staffed by one or more
eligible certified nurse midwives, nurse practitioners, or physician assistants whose
practice is within the scope of State law and regulations.x (See appendix A for more
information on Federal programs that support perinatal care at the centers.)

Eligibility Many centers reported that Medicaid eligibility requirements are still too
restrictive. According to OIG research, three States had not yet dropped an asset test
for eligibility.39 Several centers indicated, however, that eligibility expansions have


                                                   15
resulted in increased client caseloads. Consistent with several reports we received,
staff at one center noted that the number of women on Medicaid had risen as the
local economy had deteriorated.


F    On avemgq 17 percent of each cc-> perinutal clients were uninsured in 19%2

At 25 percent of the centers, 25 percent or more of the perinatal clients were
uninsured. At 9 percent of the centers, more than 50 percent of the clients were
uninsured. These clients received sewices at reduced rates, according to a sliding
scale.


*    Seven@wee paent of the centers repti serious ptublerm stemmin gfmm
     .
     -k coordinatwn of petital services in h commwdy, a tick of other local
     pmh wiUing to treat unimured and publicly insured wo~ dim anungiitg
     obsteti backup for center staff and for comuhtion for high-tik clk~ or di”
     obtaining hospital privileges for center stafi

Community Coordination: The PHS expects that centers be “active participants in
their community’s health care system. . . . This typically means fostering partnerships
and participating in consortia and task forces addressing the area’s health care issues.”
These consortia should include local health departments, social services departments,
                                                               40
hospitals, and other public and private health care providers.

Forty-two percent of the centers, however, do not participate in perinatal care
consortia. Centers reported wide differences in consortia memberships (see table 3).

                                      Table 3
           Percentage of Centers Reporting the Participation of Each of the
                Following in a Community Perinatal Care Consortium
        Local health departments I 42%                  Other health clinics         22%
        Private-practice physicians        3470         Nonteaching hospitals        21%
        State health departments           24%          Local schools                16%
        Government social services         24%          Teaching hospitals           16%
        Nonprofit groups                   23% ~ Other                               4%

                   Source: OIG Survey of Rural Community Health Centers, June 1991
                                                N =202

 Eighty-four percent reported that their consortium activities do not include teaching
 hospitals, 84 percent that they do not include local schools, 79 percent that they do



                                                  16

not include nonteaching hospitals, and 76 percent that they do not include State health
departments.41


The Local Medical Establishment: Fifty-eight percent of the centers reported that a
lack of other local providers willing to treat low-income and uninsured women

seriously limits the comprehensiveness of center care; 30 percent reported that this

shortage has become a more severe problem since 1988.


The PHS notes that “a key element in the quality and continuity of care is the

integration of the clinical staff into the larger medical community . . . to assure follow-
up of referred care and the availability of timely and quality consultations.”42 Centers
reported, however, that they face serious difficulties arranging both backup and

referrals. Forty percent of the centers reported serious difficulty arranging obstetric

backup for certified nurse midwives; 34 percent reported such problems for family

physicians.
 Thirty-six percent reported that difficulty arranging consultation for high-
risk clients is a serious limitation.


A number of centers reported that there are simply no other providers to whom

women can be referred. A variety of related problems were reported by center staff.

One center noted that the closest obstetrician serving Medicaid patients was 50 miles
away, while another reported that women had to travel 120 miles for high-risk

obstetric consultations. Another center reported that, because the “local private

obstetricians won’t cover our family physician for anything but very low-risk

pregnancies, we must turn away a high number of patients who would want care at

our facility.” Another noted that “women at or below the poverty level couldn’t get

appointments with private physicians in our area.” Another center director cited “turf

consciousness” on the part of local private-practice obstetricians as a major problem.
These doctors refused to provide backup for center staff and would only deliver
women who came directly to them for care.


Hospital Admitting Privileges:43 The PHS recommends that, “to assure continuity of
care, center physicians should have admitting privileges and medical staff membership
at one or more hospitals.”a Centers, however, reported many difficulties arranging
admitting privileges. Twenty-one percent reported a decrease between 1988 and 1990
in the percentage of staff providers with such privileges.

Thirty-one percent reported that difficulty obtaining admitting privileges for staff
obstetricians, family physicians, or certified nurse midwives is a serious limitation to
care. Twenty-nine percent of the centers cited difficulty obtaining privileges for
certified nurse midwives as a serious problem. Fourteen percent cite serious
difficulties obtaining privileges for center family physicians. For example, one
administrator noted that the local hospital had recently extended delivery privileges to
the center’s family physicians--a first in that community--but the physicians are still
unable to perform deliveries because they have been unable to arrange for obstetric
backup.
Difficulties with admitting privileges have been compounded by more basic problems
with the availability of hospital care in rural areas. Many centers have been adversely
affected by rural hospital closings. Those rural hospitals that have remained open
have experienced problems similar to those of CHCS in retaining obstetric staff and
maintaining delivery setices. Additionally, some hospitals are reluctant to provide
care for poor women. One center explained the dynamic that leads hospitals to refuse
poor clients: “The private for-profit hospital was unable to recoup the costs of
indigent care they were providing for our patients and refused to continue delivery
services for our county’s indigent or Medicaid women, forcing us to close our
program.”


E    Limited space serioudy hindem    the pmvikm of senices at 48 pem?nt of the centers.
     In additiorq limited collocation of sewices on site seriously rekcts the
     comprehensz”veness of care at 28 pement of the centem

Twenty-three percent of the centers reported that inadequate space has become a
more serious problem since 1988. Those centers that reported an increase in demand
since 1988 were significantly more likely to cite limited space as having become a
more serious limitation to care. Several centers remarked that, because clinical staff
capacity has increased, “now space is a major barrier.” Consistent with comments
made by administrators across the country, one medical director noted that “the
limited physical space of the current medical facilities prevents the center’s two
OB/GYN providers from providing care simultaneously.”

Sixty-two percent of the centers reported that no other public organizations, aside
from Medicaid or WIC, and no private groups provided sewices on site in 1990.
Those centers that cited limited space as a serious problem were significantly more
likely to cite limited collocation of services on site as a serious limitation.




                                             18

                            CONCLUSION

Section-330-funded community health centers play an important role in the provision
of perinatal care in rural areas across the country. In this report we have stressed
three themes concerning their performance of this role.

First, the centers’ capacity to provide perinatal services has increased substantially
since 1988. In terms of the number of clients served, the range of services offered,
and budgetary resources, the centers have demonstrated considerable growth.

Second, increased demand has accompanied the growth in capacity. As a result, many
center clients still do not receive all the services recommended by the Public Health
Semite. Limitations are particularly apparent in the scope of case-managed setices
offered by the centers and in the proportion of women who receive care during the
first trimester of pregnancy.

Finally, there are several basic factors that constrain the centers’ ability to provide
more semices in a more timely manner to more women. These constraints,
documented in many previous studies as well as in ours, include staffing problems,
Medicaid policies and procedures, medical malpractice insurance, relationships with
other medical providers, and clinic space.




                                             19

                            APPENDIX                   A

                 FEDERAL SUPPORT FOR PERINATAL CARE
                      AT COMMUNITY HEALTH CENTERS

The Federal Government supports the perinatal sewices provided by community
health centers both directly through Section-330 grants and indirectly through other
mechanisms, including Medicare and Medicaid reimbursements, Maternal and Child
Health grants, supplemental nutrition programs, and targeted funds. In recent years,
several initiatives have been implemented to improve center perinatal services and the
access of women to those sewices, including the following:

Medicaid Expansions: Congress has mandated several changes in the Medicaid
program. These include (1) expanded eligibility States are now mandated to extend
coverage to all pregnant women below 133 percent of the Federal poverty level, and
have the option of extending coverage to women between 133 and 185 percent of the
poverty level; (2) continuous eligibility: eligibility for coverage is now guaranteed
throughout pregnancy and the postpartum period, regardless of income changes;
(3) presumptive eligi%ili~. eligibility for temporary coverage, limited to a maximum of
61 days for ambulatory services only, is based solely on self-reported income;
(4) expanded coverage: case-management services are now reimbursable; and
(5) outstationing States must place eligibility workers at locations other than AFDC
enrollment sites, including CHCS.

Federally Qualified Heahh Centem (FQHC): The Omnibus Budget Reconciliation Acts
of 1989 and 1990 require State Medicaid programs to cover a core set of services
provided by community health centers and to reimburse centers for the reasonable
cost of covered services.

The Rural Heahh Clinic Program: The Rural Health Clinic Sewices Act of 1977
provides cost-related Medicaid reimbursement for services at rural centers in health
manpower shortage areas or medically underserved areas. Qualifying centers are
staffed by at least one certified nurse midwife, nurse practitioner, or physician assistant
whose practice must be within the scope of State law and regulations. Until the
passage of this act, these providers were not eligible for Medicaid reimbursement in
some States. Because of several problems with regulation, certification, and
reimbursement, however, far fewer centers than expected had availed themselves of
reimbursement under the act.

T%e Comprehensive Perinalal Care Program (CPCP): In 1988, the PHS launched this
initiative to improve birth outcomes by encouraging earlier entry into care and more
perinatal visits. The CPCP provides supplemental funding for enhanced services,
including improved outreach and case management. Funds were first awarded in
                                                                               45
1989. In FY 1991, $33 million was provided in CPCP supplemental funding; 51
percent of the rural respondents to our survey that offered perinatal services received

                                           A -1

CPCP funding for at least 1 year between 1988 and 1991. In fiscal years 1992 and
1993, $44.7 million was appropriated for the CPCP.fi

Healthy Start: In September 1991, HHS awarded competitive grants to 15
communities on the basis of their proposals for coordinated community programs to
improve maternal and infant health care.

Several other ongoing Federal efforts play important roles in the centers’ provision of
perinatal care, including:

National Health Service Corps (NHSC): The PHS offers both scholarships and
educational loan repayment to health providers who commit to work in designated
Health Professional Shortage Areas for a given period. A large percentage of corps
providers have traditionally worked in community health centers. After substantial
cuts in program size in the early 1980’s, the NHSC received increased funding in
1990; the number of loan repayment candidates is limited, however, and most
scholarship recipients will not be available for service until the mid-1990’s.

Supplemental Food Program for Women, Infants, and Children ( WIC): The
Department of Agriculture provides vouchers through this program to address the
nutritional needs of pregnant and lactating women and their infants.




                                          A -2

                            APPENDIX                  B

                                  METHODOLOGY

We obtained information for this report through a mail survey of Section-330 grantees,
a site visit to one center, telephone conversations with representatives of another
center, a series of intemiews, and a review of relevant literature and data.

Mail Survey We sent a mail survey of perinatal semices to all Section-330 grant
recipients in June 1991. Of 302 rural centers, 253 (84 percent) responded, including
centers in every HHS region and every State and territory in which rural centers are
located, with the exception of the U.S. Virgin Islands. A review of the geographic and
demographic information that was available suggested no significant differences
between respondents and nonrespondents.

Of the 253 rural respondents, 51 (20 percent) provided no perinatal services on site at
all during the 1988-91 period. The numbers and percentages in the body of this
report, unless otherwise noted, reflect the responses of those 202 centers (67 percent
of all rural centers) that offered semices on site in at least 1 year during the 1988-91
period.

Of the 202 respondents that provided semices on site during the study period, 102 (51
percent) were CPCP-funded. For the purposes of this report, a CPCP-funded center
is any center that received CPCP grant funding at any time, regardless of the year in
which the initial grant was awarded.

Not all respondents provided complete information. We calculated trends presented
in the body of this report from the responses of those centers that provided the
relevant information for all years.

Unless otherwise noted, the statements in the body of this report that compare groups
of centers (such as CPCP-funded and other centers) reflect statistical significance at
the .05 level. In reporting responses to survey questions that solicited information on
a scale, we combined responses of “moderately” and “substantially” and reported them
as “seriously” or “serious.”

Site Visits: The study team conducted a site visit to one rural center in Ohio and its
two satellite clinics. The team toured the facility and interviewed management and
clinical staff. The study team also conducted a conference-call interview of
administrative and clinical staff at a center in Mississippi. We chose these centers
based on discussions with regional PHS staff and with consideration of geographic
representation and community size.




                                          B - 1


                                                                                           —   .
Intewiews: The study team held discussions with (1) officials in PHS’S Bureau of
Prima~ Health Care (BPHC) (then called the Bureau of Health Care Deli}’e~ and
Assistance), both in headquarters and in those regional offices responsible for the
oversight of site-visit centers; (2) State primary care association and cooperative
agreement staff in those States and regions in which site-visit centers are located; and
(3) infant and community health experts, including staff at the Children’s Defense
Fund, the National Commission to Prevent Infant Mortality, and the National
Association of Community Health Centers.

Literature and Data Review. The team reviewed extensive literature in the areas of
infant and community health. The Public Health Sewice provided us with financial
data that were collected from the centers through the Bureau’s Common Reporting
Requirements reports, and with financial and user data that were collected from CPCP
applicants through the Perinatal User Profile reports.




                                          B - 2

                               APPENDIX                      C

                               RURAL SURVEY RESPONSES

The Office of Inspector General survey was mailed to 302 rural community health centers in
May 1991. Of the 253 (84 percent) that responded, 51 provided no perinatal services on site
during the 1988-91 period. Below we present the frequencies and mean responses for those
202 centers that did provide se~ices at some point during this period. Not all centers
answered every question. The number of respondents to each field (N) is indicated in
parentheses as appropriate.

Any discrepancies between the responses below and the data presented in the body of this
report are a result of the methods used in aggregating data and calculating trends. Please see
appendix C for a discussion of statistical methodology.




Number of centers that offered perinatal services on site in each year:

        1988: Yes=179       No=23
        1989: Yes=182       No=20
        1 9 9 0 : Yes=187   No=15
        1 9 9 1 : Yes=185   No=17




A CASELOAD                                            1988           1989           1990

1. Please indicate:
                                                                     MEAN (N)
a. the number of women who received prenafaf
    care at your center:                              261 (157)      272 (174)      278 (188)
b. the percentage of these clients who were
    high-risk as defined by your center:              27% (130)      29% (144)      29% (160)
c. the percentage of these clients who were
    low-risk as defined by your center:               60% (129)      61% (146)      61% (154)
d. the number of births to your center’s
    clients:                                          195 (139)      206 (161)      218 (167)

2. Of the women who gave birth in your service
   area, what percentage received prenatal care
   at your center?                                    45% (128)      46% (137)      49% (135)




                                              c-1
B. COMMUNITY COORDINATION

1. Does your center currently participate in a consortium of perinatal care providers?

       YeS=l17        No=85         If YES, please continue.

2. Which of the following participate in the consortium? (Please check all that apply):

       a.   state health department:     49            f. nonteaching hospitals:                43
       b.    local health department:    85            g. private-practice physicians:          69
       c.   health clinics:              44            h. gov. social setice agencies:          48
       d.   schools:                     33            i. non-profit organizations:             47
       e.   teaching hospitals:          32            j. other:                                 8

3. On the last page of this sumey, briefly describe the coordination of consortium activities and
your center’s involvement.


C. CLINIC SITES AND HOURS                              1988            1989              1990

1. Please indicate the number OE                                       MEAN (N)

a. clinic sites operated by your center:               2.5 (192)       2.6 (192)         2.6 (193)

b. clinic sites at which prenatal care
   was provided:                                       1.8 (199)       1.9 (198)         1.9 (l%)

2. On how many days a week did your center
provide scheduled prenatal appointments
either before 8AM or after 6PM?                        0.97 (191)      0.99 (190)        1.1 (189)

3. On how many saturdays a month did
your center provide scheduled

prenatal appointments’?                                0.59 (189)      0.62 (188)        0.66 (188)



D. Funding

1. Compared with 1988, the amount of funding available for perinatal care at your center in 1990
was:

        Larger= 76      Smallcr=26         Unchanged=84

2. Please indicate the percentage of your center’s 1990 perinatal clients covered by:

        a. Private insurance:     13.1% (170)                  c. Medicaid:               S.6% (167)
        b. No insurance:          17.4% (172)                  d. Other:                   2.3% (175)




                                                c-2
3. To what extent hwe the following factors resulted in increased demand for perinatal semices
at your center over the past three years?
                                                   Not at W                 Moderately/
                                                   Somewhat                 Substantially

       a. Medicaid eligibility expansions:               72                    107

       b. Medicaid presumptive and
           continuous eligibility provisions:            82                    93



E. PERINATAL OUTREACH

1. To which of the following groups does your center currently target specific perinatal outreach
efforts? (Please check all that apply)
       a. Teenagers:         170                    c. Non-English speakers:         65
       b. Substance abusers: 55                     d. Other:                        55

2. At which of the following locations does your center currently conduct perinatal outreach?
(Please check all that apply)

        a. Community	                               d.   Schools:                    129
           centers:             81                  e.   Welfare offices:             68
        b. Shops:               20                  f.   Churches:                    48
        c. Door-to-door in the	                     g.   Other:                       62
           neighborhood:        33

3. Through which of the following media does your center currently conduct perinatal outreach?
(Please check all that apply)

        a. Television:             27               d. Radio:                        59
        b. Newspapers:            111               e. Other:                        48
        c. Pamphlets:             151

4. Compared with 198S, your center’s outreach efforts in 1990 were:

        Greater= 118       Smaller= 16          The same=55

5. Compared with 1988, your center’s outreach efforts in 1990 yielded:

        More clients= 121        Fewer clients= 16            The same number of clients=37




                                                    c-3
F. PERINAT~ SERVI~

1. Please indicate which of the following seMces were provided    --eitherbythrough
                                                                              your center. If these
                                                                                    contract,        were
                                                                                               affiliation,
offered on site, please circle On. If these were offered off site
or paid referral~-please circle Off.
                                                            1988             1989             1990

                                                            On=42            orl=50           On=5 6
a. Ultrasound:                                                               Off= 124         Off= 123
                                                            Off= 129
                                                            on=9             0U=9             on=13
b. Amniocentesis:                                                            0ff=152          off= 150
                                                            Off= 150
                                                            0n=36            0Q=36            on=37
c. Genetic counseling:                                                       off= 120         off= 121
                                                            Off=l18
                                                            on=36            0n=38            on=45
d. Non-stress testing:                                                       off= 120         0ff=l16
                                                            m= 122
                                                            on=90             0n=85           on=91
 e. Dental care:                                                                              off=88
                                                            0ff=78            off=86

                                                             Orl=lso          on=157           0n=167
 f. Nutritional services:                                                     0ff=25           Off= 18
                                                             0ff=29
                                                             on=168           On=172           0n=181
 h. Health education:                                                         off= 13          off= 10
                                                             off= 17
                                                             on=77            0n=84            0n=90
 i. Birthing classes:                                                         off=73           off=74
                                                             0E=79
                                                             0n=76            0n=83            0n=102
 j. Parenting/infant care classes:                                            off=73           off=64
                                                             OE=75
                                                             &=176            0n=176           0n=183
  k. Family planning:
                                                             off= 10          off= 10          Off=lo
                                                             0n=85             0n=84            0n=90
  1. Smoking cessation programs:                                                                Off=63
                                                              off=57           off=60
                                                              on=38            0n=34            0n=35
  m. Substance abuse treatment:                                                                 off= 130
                                                              0ff=l18	         0ff=123
                                                              0n=98            0n=l13           0n=135
  n. HIV counseling/testing:                                                                    0ff=38
                                                              0ff=58           0ff=52



  2. Compared with 1988, the range of perinatal
  services offered by your center in 1990 was:

           Greater= 123        Smaller=24         Unchangd=49

   3. Were perinatal clients enrolled on-site at the center
   in the following programs?
                                                               yes=51           Yes=72           yes=97
            a. Medicaid:                                                                         No=IOO
                                                               No=139	          No=119
                                                               ye’s=99          Yes=lo7          Yes=lo7
            b. WIC:                                                                              No=90
                                                               No=93            No=88




                                                      c-4
                                                           1988          1989            1990

4. Did other government or private social sexvice
organizations provide services on-site at your
center?	                                                   Yes=56        Yes=59          Yes=72
                                                           No=134        No=132          No=125

5. Did your center facilitate access to perinatal
care by providing the following services?

a.	 Transportation to and from appointments:               Yes=87        Yes=loo         Yes=l14
                                                           No=1O3        No=93           No=83
b.	 Translation for non-English speaking clients:          Yes=85        Yes=88          Yes=97
                                                           NO=81         NO=80           No=71
c. Child care during center appointments:                  Yes=19        Yes=20          Yes’Xl
                                                           No=171        No=172          No=165
d, Home visits:                                            Yes=85        Yes=lol         Yes=l15
                                                           No=1O6        No=92           NO=81


G. STAFFING
                                                           1988          1989            1990

1. How many full-time equivalents of each
of the following provided perinatal services
on-site at the center? (N =202)

   Obstetricians:                                          0.45          0.45            0.43
: Family physicians:                                       1.44          1.40            1.41
c. Certified nurse midwives:                               0.19          0.18            0.22
d. Nurse practitioners:                                    0.56          0.59            0.65

e. Physician assistants:                                   0.39          0.42            0.45



2.
 Please indicate below: (i) the number of your perinatal provider positions which are currently
vacant; (ii) the number which have been va-cant for more that six months; and (iii) the number

which have been vacant for more than one year. (N=202)
                                                (i)             (ii)            (iii)
                                                Number of       More than       More than
                                                vacancies       six months      one year

a. Obstetrician:                                    0.25          0.21            0.12
b. Family physician:                                0.54          0.47            0.47
c. Certified nurse midwife:                         0.13          0.10            0.05
3. Compared with 1988, the percentage of your perinatal providers with admitting privileges at
local hospitals in 1990 was:

        Ixger=49           Smaller= 21   Unchanged=97



                                                c-5
H. TIMING OF CARE

l. Please indicate the percentage ofyourcenter’s 1990 prenatal clients whoentered care in the:

       a. First trimester:        58.7% (181)
       b. Second trimester:       30.8% ( 1 8 0 )
       c. Third trimester:         9 . 9 % (163)

                                                      1988            1989            1990


2. Of those clients who entered care during the
first trimester, and carried to term, what
percentage received at least nine prenatal
medical visits?                                           79.1% (1 13) 79.8% (124) 81.9%0 (147)

3. What percentage of your center’s prenatal
clients returned for postpartum visits                                                73.9% (161)
during the first eight weeks after delivery?
                                                       69.3% (121) 72% (142)

 4. What percentage of all infants born to center
 prenatal clients returned for newborn visits
                                                          66.3% (121) 69.7% (138) 71.8% (158)
 during the first four weeks after birth?


 L APPOmE~ FOR CARE

 1. If a woman called today to schedule a pregnancy test, how long would she wait for an
 appointment?

         Pregnancy tests are offered                      Less than one week: 66
                                          123             One-two weeks:       8
          on a walk-in basis:
                                                          More than
                                                           two weeks:          2


  2. If the pregnancy test were negative, would she be referred to family planning services?

          Yes=178        No=19

  3. If the pregnancy test were positive, how long would she wait for her first prenatal visit?

          The first perinatal visit is                     Less than two weeks: 118
                                                           Two-four weeks:       42
           provided in conjunction
                                           33	             One-two months:        2
           with the pregnancy test:
                                                           More than
                                                            two months:           3


   4. Compared with 1988, waiting room waiting times at perinatal appointments in	 1990 were
   generally:

           Shorter= 65       Longer=26     me same=94


                                                    C-6

                                                                                                    —
J. CASE MANAGE~NT

1. Does your center currently provide case management topromote thecoordination ofsetices
for perinatal clients?

       Yes=176      No=26 If-, please continue.

2. Case management at your center is primarily conducted by (please check only one):

       The client’s primary care doctor:
           28
       The client’s primary care nurse:
            14
       The appointments secretary:
                  2
       A multidisciplinary team:
                   54

        A center employee whose main
           responsibility is case management
           for perinatal clients:                    67

        Other:                                        12



 3. Case management at your center is provided for (please check only one):

        All perinatal   clients:                      143
        All high-risk   perinatal clients:             21
        Only certain    groups of
            perinatal   clients:                       13



 4. Case management of perinatal clients at your center comprises (please check all that apply):

         a. Risk assessment:                           165
         b. Planning of care:                          162
         c. Assessment of adequacy and
             appropriateness of services:              144
         d. Client advocacy:                           131
         e. Contact with other organizations
             to arrange for scmices /
             schedule appointments:                      163
          f. Assistance with paperwork related to
             WIC, Medicaid, and other programs:           145
          g. Discharge planning:                           94

         Coordination OC
          h. Medical	 semices provided
              on-site at the center:                       158
          i. Medical services piovided
              off-site:                                    147




                                                c-7
Continued:

       j. Delivery semiccs:                            118
       k. Social services provided
           on-site at the center:                      110
       1. Social set-vices provided
           off-site:                                   126
        m. Nutritional se~ices:                        158
        n. Health education:                           162
        o. Other:                                       27

5. Compared with 1988, the percentage of all center perinatal clients case managed by your staff
in 1990 was:

       kger= 126         Smaller= 14   Unchanged =33

6. Does your center often encounter problems assuring the timely transfer of medical records to
and from facilities to which perinatal clients are referred?

       For delivery:           Yes=35     No=142
       For other care:         Yes=32     No=141

7. Please estimate the percentage of cases in which your center contacts perinatal clients to
reschedule missed appointments:

       6 0 % (N=158)

8. Please indicate the manner in which you contact clients to reschedule missed appointments
(please check all that apply):

        Mail= 149     Phone= 168 Home visit=95           Other= 10

9. Are perinatal clients at your center routinely attended by either the same primary medical
provider or the same provider team at eachperinatal visit?

        Yes=168      No=7




                                              C - 8

K LIMITATIONS TO CARE Please indicate the degree to which each of the following factors
limits your center’s ability to provide perinatal serwces:
                                                           Not at all/     Moderately/
                                                           Somewhat        Subwultially

 1. Shortage of medical staff                             65                132
 2. Shortage of nonmedicd staff                          138                 48
 3. High medical staff turnover:                         127                 61
 4. High nonmedical staff turnover:                      168                 16

Difficulty obtaining admitting privileges
at local hospitals for:
  5. obstetricians:                                      144                 18
  6. family physicians:                                  157                 25
  7. certified nurse midwives:                            97                 43

8. High cost of malpractice insurance:                   82                 102

Difficulty obtaining malpractice insurance for:
 9. obstetric providers:                                 135                 35
 10. all providers:                                      156                 29

Difficulty arranging medical backup for:
 11. OB supervision of certified nurse midwives/
     nurse practitioners:                                 88                 59
 12. OB supervision of family physicians:                110                 57
 13. coverage during center staff vacations,
     holidays, and weekends:                             99                  84
 14, consultation for high-risk patients:                117                 67

  15. Limited relationships with local
     community and government organizations:              172                 15
  16. Lack of other providers in the community
     willing to treat uninsured or publicly
     insured women:                                       79                 108

 Non-acceptance of certified nurse midwives/
 nurse practitioners:
  17. by the medical community:                           103                 62
   18. by patients:                                       144                 15

   19. Inadequate center funding:                         80                 109
  20. Difficulties related to funding obtained
     from many different sources:                         104                 76

 Medicaid-related problems:
  21. slow reimbursement process:                         114                 72
  22. inadequate reimbursement rates:                      89                 95
  23. limited range of covered services:                  107                 75
  24. restrictive eligibility criteria:                   104                 81
  25. burdensome application procedures:                   91                 97

   26. Limited case management:                           127                 58
   27. Limited collocation of services:                   131                 50
   28. Limited space:                                      98                 91
   29. Other                                               27                 19


                                                   c-9
Which Of these factors have become LESS SERIOUS or MORE SERIOUS limitations since
1988?
                                                     More
                                                     serious           serious

                                                           40           13
 1. Shortage of medical staff:                                          11
 2. Shortage of nonmedial staff                            12
                                                           17           14
 3. High medical staff turnover:
                                                            5           12
 4. High nonmedicd staff turnover:

Difficulty obtaining admitting privileges
at local hospitals for:
                                                            6           10
  5. obstetricians:
                                                            6           10
  6. family physicians:
                                                            6           10
  7. certified nurse midwives:
                                                           24            7
  8. High cost of malpracti~ insurana:

Difficulty obtaining malpractiu insurance for:
                                                            8            7
 9. obstetric providers:
                                                            7            8
 10. all providers:

 Difficulty arranging medical backup for:
  11. OB supervision of certified nurse midwives/
                                                            14           8
      nurse practitioners:
                                                            15           7
  12. OB supervision of family physicians:
  13. coverage during center staff vacations,
                                                            22	          9
      holidays, and weekends:
                                                            17           7
  14. consultation for high-risk patients:

   15. Limited relationships with local
      community and government organizations:                   3        20
   16. Lack of other providers in the community
      willing to treal uninsured or publicly
                                                            2’7              9
      insured women:

 Non-acceptan@ of certified nurse midwives/
 nurse practitioners:
                                                                8        13
   17. by the medical community:
   18. by patients:                                             3        14

   19. Inadequate center funding:                           24           11
   20. Difficulties related to funding obtained
      from many different sources:                              16           5

  Medicaid-relatd problems:
   21. slow reimbursement process:                              12           18
   22. inadequate reimbursement rates:                          13           23
   23. limited range of covered services                        10           17
   24. restrictive eligibility criteria:                         9           29
   25. burdensome application procedures:                       13           21

    26.   Limited case management:                                  8        22
    27.   Limited collocation of services:                          5        16
    28.   Limited space:                                        23           11
    29.   Other                                                  2            1


                                                    c-lo
L CONCLUSION

1. Over the past three years, demand for perinatal care at your center has:

       Inereased=152      Dexxd=15           Not changed =32

2. Over the past three years, your center’s capacity to address the demand for perinatal care in
your semice area has:

       Lrlcreased= 104    Decreascd=52       Not changed =42




OPEN-ENDED QUESTIONS: [Center responses are not included here]:


3. What are the three most significant barriers to delivering perinatal care that your center has
faced in the past three years?

4. What special projects, initiatives, or programs has your center undertaken over the past three
years to improve its ability to respond to perinatal care needs in your sewice area?




                                              C-n



                                                                                            —
                          APPENDIX                  D

                                      NOTES

1.   National Center for Health Statistics (NCHS), 1992. The 1989 U.S. infant
     mortality rate was 9.8 deaths per 1,000 live births. The provisional rate for
     1990 is 9.1 deaths per 1,000; and the provisional rate for 1991 is 8.9 per 1,000.
     These rates represent considerable improvement over the 1950 rate of 29.2, but
     the pace of improvement has slowed in recent years and has not been
     experienced equally by all segments of the population. According to the most
     recently published international data, the 1988 U.S. infant mortality rate for
     whites alone places the nation 17th lowest in the world, while the rate for
     blacks alone places it 36th. Native Americans and Puerto Ricans also have
     infant mortality rates considerably higher than the national average.

2.   U.S. Public Health Service (PHS), Healthy People 2000: National Health
     Promotion and Dkease Prevention Objectives, Washington, D.C., 1990, p. 366.

     PHS, Caring for Our Future: The Content of Prenatal Care: A Repoti of the
     PHS Expert Panel on the Content of Prenatal Care, Washington D.C., 1989, p. 2.

3.   NCHS, “Advance Report on Final Natality Statistics, 1989,” A40nthZy Htal
     Sta/zktic.s Repon, vol. 40, no. 8, Supplement, December 12, 1991, p. 43. These
     1989 data are the most current available.

     Alan Guttmacher Institute, Prenatal Care in the United States, New York, N. Y.,
     1987, vol. I, p. iv. Adequacy of care is a function of time of entrance into care
     and number of visits. During the period 1984-86, 24 percent of women entered
     care after the first trimester, 24 percent had fewer than 9 visits, and 34 percent
     received less than adequate care.
4.   Bruce Behringer, President, National Rural Health Association; Executive
     Director, Virginia Primary Care Association; Testimony before the U.S. House
     Committee on the Budget Task Force on Human Resources, October 3, 1991,
     p. 1.

5.   Laura Summer, Limited Access: Health Care for the Rural Poor, Center on
     Budget and Policy Priorities, Washington, D. C., 1991, p. 16.

     In September 1990, the American College of Obstetricians and Gynecologists
     (ACOG) reported that, as a result of the risk of malpractice, 12 percent of its
     members had discontinued their obstetric practices, 24 percent had reduced or
     eliminated services to high-risk women, and 10 percent had decreased the
     number of deliveries they performed. Average obstetric premiums rose 248
     percent between 1982 and 1989. (ACOG, prepared by Opinion Research


                                        D-1
        Corporation, “Professional Liability and Its Effects: Report of a 1990 Suwey of
        ACOG’s Membership,” Washington, D. C., September 1990.) The ACOG
        repeated this survey in September 1992, and found no statistically significant
        differences from the prior survey.

        In addition, as of 1987, 64 percent of family physicians who once provided
        obstetric services had discontinued such care. (American Academy of Family
        Physicians, “Family Physicians and Obstetrics: A Professional Liability Study,”
        1987.)

6.      March of Dimes, Infant Survival in Rural America, White Plains, N. Y.,
        August 1991, p. 3.

        Summer, pp. 27-29.

7.      Deborah Lewis- Idema, Increasing Provider Participation, National Governors’
        Association, Washington, D. C., 1988, pp. 21-22. An increasing number of
        physicians who practice obstetrics are unwilling to accept low-income or
        Medicaid-insured patients because of high malpractice premiums and low
        Medicaid reimbursement rates.

        Office of Inspector General (OIG), Medicaid Expansions for Prenatal Care:
        State and Local Implementation (OEI-06-90-0016), January 1992, pp. 8-9.
8.      PHS, “HRSA’S Long-Range Plan to Improve Access to Primary Health Care
        for Underserved Populations.” July 1990, unpublished, p. 10.

9.      National Association of Community Health Centers, Mothen, Infants, and
        Community and Migrant Health Centen, Washington, D. C., December 1989,
        table 4.

10.     Section-330 funding was $435 million in FY 1989, $457 million in FY 1990, and
        $478 million in FY 1991. (Health Resources and Semites Administration
        (HRSA) FY 1993 Justification of Appropriations, vol. 1, p. 63.)

        For FY 1992, $532 million was appropriated. The FY 1993 appropriation is
        $559 million. (Bureau of Primary Health Care [BPHC] and the Assistant
        Secretary for Management and Budget [ASMB].)

11.	    The Public Health Service provided us with financial data that they collected
        from the centers through the Bureau’s Common Reporting Requirements
        reports, and with financial and user data that they collected from CPCP
        applicants through the Perinatal User Profile reports.

 12.	   Unless otherwise indicated, the differences between groups (such as CPCP
        grantees and other centers) that are noted in this report are statistically
        significant at the .05 level.


                                           D-2
13.   Centers that semedfewer than 75prenatal clientsin 1988 served anaverageot
      32 in 1988 and 88 in 1990. Centers that served between 75 and 249 clients in
      1988 seined an average of 149 in 1988 and 184 in 1990. Centers that sexved
      250 or more clients in 1988 served an average of 562 in 1988 and 623 in 1990.
14.   In 1988--before CPCP funds were distributed--those centers that eventually
      received CPCP funding served an average of 365 clients; the other centers
      seined an average of 134. In 1990, the CPCP-funded centers served an average
      of 431 clients; other centers served an average of 167.

      According to an internal PHS draft report, “CPCP 1990 Data Report: Moving
      Ahead,” CPCP-funded centers seined 33,938 pregnant teens in 1990, which they
      report is more than triple the number seined in 1988. Also according to this
      report, in 1989, CPCP-funded centers provided services to 13.4 percent of all
      pregnant teens age 15 or younger in the United States. PHS’S CPCP data,
      however, does not permit a comparison of CPCP-funded centers and other
      centers.

15.   These centers served an average of 223 prenatal clients in 1988 and 286 in
      1990. Centers with prenatal populations that were less than half Medicaid-
      enrolled sewed an average of 270 clients in 1988 and 302 in 1990.

16.   Our suwey inquired about the provision of a representative range of perinatal
      medical and health-promotion semices: ultrasound, amniocentesis, genetic
      counseling, non-stress testing, dental care, nutritional services, health education,
      childbirth classes, parenting/infant-care classes, fami~y planning,
      smoking-cessation programs, substance-abuse treatment, and HIV
      counseling/testing.

17.   Our survey inquired about the provision of four semices that facilitate access to
      care: translation. transportation, home visiting, and child care during
      appointments.

18.   Some centers were able to complete enrollment on site. Other centers only
      distributed forms or provided assistance in completing them. In such cases,
      applicants had to complete the enrollment process at the appropriate State
      offices. Some centers completed all nutritional assessment and paper-work for
      WIC on site, but clients had to obtain vouchers at a different location.

19.   There was a 126 percent increase in the number of CPCP-funded centers and a
      44 percent increase in the number of other centers that provided on-site
      assistance with Medicaid enrollment. In 1988, 19 CPCP-funded centers and 18
      other centers provided on-site assistance with Medicaid enrollment, compared
      with 43 CPCP-funded centers and 26 other centers in 1990.




                                          D - 3

20.   Bureau’s Common Reporting Requirements (BCRR) Database, BPHC, PHS.

      This database contains self-reported financial and user data from Section-330
      grantees. We derived the percentage increase incenter revenues from data for
      those 214 rural centers (71 percent of all rural grantees) that provided financial
      data to BPHC through the BCRR form for the years 1988, 1989, and 1990.
      Some of these centers did not respond to our survey.

      Total reported revenues for these 214 centers increased from $215 million in
      1988 to $259 million in 1990. Public Health Service Section-330 grants to these
      centers increased from $95 million in 1988 to $113 million in 1990. Medicaid
      reimbursements to these centers increased from $23 million in 1988 to $33
      million in 1990. These centers received additional revenues from MCH block
      grants, Public Health Service Section-329 and -340 grants, WIC grants, Title X
      grants, Title XVIII Medicare payments, Title XX payments, other third party
      payments, patient collections, State and local revenues, and donations.
21.   We excluded these 51 centers from calculations of the statistics presented in the
      body of this report (see appendix B for detailed methodology).
22.   Thomas S. Nesbitt, Frederick A. Connell, L. Gary Hart, and Roger A.
      Rosenblatt, “Access to Obstetric Care in Rural Areas: Effect on Birth
      Outcomes,” America~l Journal of Public Health, July 1990, vol. 80, no. 7,
      pp. 814-819.

      This study compared communities in which 67 percent or more of pregnant
      women traveled outside of their community for obstetric care (high outflow)
      and communities in which fewer than 33 percent of pregnant women travelled
      outside of their communities for obstetric care (low outflow). The sumey found
      that women who lived in high-outflow communities had a 34 percent higher
      occurrence of complications during delivery and higher medical costs for
      themselves and their infants than those from low-outflow communities. Medical
      costs were twice as high overall for high-outflow communities ($2,103 versus
      $1,046), and four times as high for Medicaid patients ($4,627 versus $1,014).
23.   OIG, Effects of 1988 Rural Hospi~al Closures on Access lo Medical Care (OEI-
      04-89-00742), August 1990, pp. 4, 7.

      Forty percent of residents who lived within 10 miles of a recently closed
      hospital, and for which a replacement was more than 10 miles away, said that
      they had a serious problem getting hospital care and attributed it to hospital
      closure. Similarly, 42 percent of those who had to travel more than 10 miles
      for emergency care reported a serious problem with access.

24.   In reporting responses to survey questions that solicited information on a scale,



                                         D - 4

      we combined responses of “moderately” and “substantially” and reported them
      as “seriously or “serious.”
25.   PI-IS, Caring for Our Future, p. 2.

      PHS, Healthy People 2000, p. 366.

      In our sumey, we used the terms “health education” for “health promotion” and
      “social setices” for “psychosocial services.”
26.   BPHC, PHS, “Program Expectations,” (hereafter P.E.), May 1, 1991, p. 21.
      This document outlines both requirements of law and regulation, and
      departmental priorities for the centers.

      BPHC, PHS, “Regional Program Guidance Memorandum 84-52,” May 15, 1984.

27.   Inadequate insurance, limited financial resources, long waits for appointments,
      an inability to arrange child care, and time-consuming transportation all
      discourage women from returning for care. Some women may receive follow-
      up care from other providers, but it is unclear to what extent centers track
      these women after delivery.
28.   NCHS, 1992. These 1989 data for national rates of entry into care are the
      most recent available. The average of 62.2 percent for minority women was
      calculated from rates for Mexican American, Puerto Rican, Cuban, Central and
      South American, other Hispanic, Chinese, Japanese, Filipino, Hawaiian, other
      Asian, American Indian/Alaskan Native, and Black women.

      The BPHC provided the rate for women in federally designated Healthy Start
      project areas. The BPHC calculated this rate from information reported by the
      15 projects for a time period between 1984 and 1989. The project areas are:
      Aberdeen, South Dakota (rates are for the Northern Plains Native American
      populations in North Dakota, South Dakota, and Nebraska); Baltimore,
      Maryland; Birmingham, Alabama; Boston, Massachusetts; Chicago, Illinois;
      Cleveland, Ohio; Detroit, Michigan; Lake County, Indiana; New Orleans,
      Louisiana; New York, New York; Oakland, California; the Pee Dee region,
      South Carolina; Philadelphia, Pennsylvania; Pittsburgh, Pennsylvania; and
      Washington, D.C.

29.   NCHS, Monthly Vital Statzkics Repoti, 1991, p. 43. These 1989 data are the
      most recent available.
30.   American College of Obstetricians and Gynecologists (ACOG), S/andards for
      Obstetric-Gynecological Services, Washington, D. C., 7th cd., 1989, p. 16.

      The PHS has required that “all centers, regardless of size, must assure that the
      services that they deliver conform to the Standards for Obstelnsc-GynecoloN”c

                                            D-5
      Services” (“Perinatal Care: How to Establish Perinatal Semites in Community
      Health Centers,” PHS, 1985 p. 96).

      A 1989 PHS report, Caring for Our Future: me Content of Prenatal Care,
      suggested slightly different guidelines. This report recommends that healthy
      women receive a minimum of nine prenatal visits during a first pregnancy and
      seven prenatal visits during subsequent pregnancies (p. 50). The report
      suggests that women at risk, because of either psychosocial or physical factors,
      might require more prenatal visits (p. 71). Psychosocial and physical risk
      factors include: inadequate personal support systems, single marital status,
      adolescence, advanced age, high stress and anxiety, less than high school
      education, low income, inadequate housing, inadequate nutritional resources,
      communication barriers, smoking, alcohol abuse, and illicit drug use (p. 79).

31.   Nonresponses may have resulted in an underestimate of the percentage of
      centers with such vacancies.

32.   U.S. General Accounting Office, Medical Malpractice: Data on Claims Needed
      to Evaluate Health Centen’ Insurance Alternatives (HRD-91 -98), Washington,
      D. C., May 1991, p. 1. These data are for all Section-330 grant recipients.
33.   P.L. 102-501. Under the 17C& center providers will be defended by the
      Justice Department in any medical malpractice litigation, and judgments will be
      paid out of a Justice Department fund, into which the centers will pay annual
      contributions. This liability protection will be provided for three years, after
      which time the financial benefits of the arrangement will be assessed.

34.   On average, 13 percent of each center’s perinatal clients were privately insured
      and 2 percent were covered by other mechanisms in 1990.

35.   OIG, Medicaid Expansions for Prenatal Care: State and Local Implementation
      (OEI-06-90-00160), January 1992, appendix E.

36.   Bonnie Lefkowitz, BPHC, PHS, written communication to OIG,
      December 24, 1991.

37.   One center reported waits of more than 12 months for Medicaid
      reimbursement.

38.   P.L. 95-210. Tile Rural Health Clinic Services Act.

      The Rural Health Clinic Se~ices Act was amended in the Omnibus budget
      Reconciliation Act of 1989 to include certified nurse midwives as eligible
      program participants, and to provide reimbursement for clinical social work
      services.




                                         D - 6

39.   OIG, Medicaid Ekpan.sions for Prenatal Care: An Update
      (OEI-06-90-O0161), May 1992.
40.   P. E., pp. 4-5.
41.   Centers report a range of coalition activities, including: high-risk referrals and
      consultations, coverage for delivery, case management and support services,
      integration of WIC setices, support for breast-feeding women, setices to
      migrant populations, and outreach.
42.   P. E., p. 18.
43.   Our sumey addressed only admitting privileges. During intemiews, center staff
      reported hospital restrictions on the delivery privileges of certified nurse
      midwives and family physicians.

44.   P. E., p. 19.
45.   HRS~ FY 1993 Justification of Appropriations, vol. 1, p. 61.
46.   BPHC and ASMB data.




                                          D-’l
